No.:
IN THE SUPREME COURT OF THE UNITED STATES
JEFFREY LANCE HILL, SR., Petitioner,
v.
LEANDRA G. JOHNSON, individually, et al, Respondents.
PROOF OF SERVICE
I hereby certify that on January 3I .t, 2020, three true and correct copies of my
Petition for Writ of Certiorari were served by U.S. Mail, postage prepaid, to each of
the following; William H. Stafford, III, phone: 850-414-3785, attorney for
Respondents Leandra G. Johnson, Gregory S. Parker and William F. Williams, III,
at PL-01 the Capitol, Tallahassee, Florida 32399-1050; Francis Emory Springfield,
phone: 352-371-9909, attorney for Respondent Jennifer B. Springfield, at 806 SW
16th Ave., Gainesville, Florida 32601; David C. Willis, phone: 407-872-7300,
attorney for Suwannee River Water Management District, at P.O. Box 1873,
Orlando, Florida 32801; Susan S. Erdelyi, phone: 904-398-0900, Attorney for
Respondent City of Lake City, Florida, at 1200 Riverplace Blvd., Jacksonville,
Florida 32207; Respondent Joel F. Foreman, phone: 386-752-8420, at 207 South
Marion Ave., Lake City, Florida 32055; and Respondent Columbia County, Florida,
phone: 386-755-4100, at 135 North Hernando Ave., Lake City, Florida 32055. All
parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January

7

31 '1.142020.

44(/-4

, Jeffrey Lance Hill, Sr., Petitioner pro se

908 SE Country Club Road, Lake City, Florida 32025
Phone: 386-623-9000

